No. 19-1108

 

In THE

Supreme Court of the Anited States

DERAY MCKESSON,

Petitioner,
v.

JOHN DOE,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

BRIEF OF AMICUS CURIAE
HOWARD UNIVERSITY HUMAN AND
CIVL RIGHTS CLINIC
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,800 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 9, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
